              Audit Report


The Social Security Administration’s
 Internal Controls over Issuing and
 Monitoring Contractors’ Homeland
 Security Presidential Directive-12
            Credentials




        A-15-11-11178 | April 2013
MEMORANDUM


Date:      April 18, 2013                                                     Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   The Social Security Administration’s Internal Controls over Issuing and Monitoring Contractors’
           Homeland Security Presidential Directive-12 Credentials (A-15-11-11178)

           The attached final report presents the results of our audit. Our objective was to determine
           whether the Social Security Administration had appropriate and adequate internal controls over
           issuing and monitoring Agency contractors’ Homeland Security Presidential Directive-12
           credentials.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
The Social Security Administration’s Internal Controls over
Issuing and Monitoring Contractors’ Homeland Security
Presidential Directive-12 Credentials
A-15-11-11178
April 2013                                                                Office of Audit Report Summary

Objective                                 Our Findings

To determine whether the Social           We reviewed the processes for SSA components involved in
Security Administration (SSA) had         HSPD-12 suitability and credentialing. Overall, we determined
appropriate and adequate internal         that, in certain cases, SSA did not communicate the results of
controls over issuing and monitoring      suitability determinations to the appropriate personnel, did not
Agency contractors’ Homeland              deactivate credentials timely or enforce the collection of credentials
Security Presidential Directive-12        from terminated contractors. During our review, we found
(HSPD-12) credentials.                    instances when SSA’s components did not follow procedures for
                                          (1) terminating unsuitable contractors and ensuring investigations
Background                                were complete, (2) cancelling terminated contractors’ credentials,
                                          and (3) enforcing the collection and destruction of credential cards.
HSPD-12 requires that all Federal
agencies develop and implement a          Our Recommendations
mandatory, Government-wide standard
of identification for Federal employees   We recommend SSA:
and contractors. The purpose of
HSPD-12 is to enhance security,           1. Ensure all components involved in the HSPD-12 suitability and
increase Government efficiency,              credentialing process effectively communicate unsuitable
reduce identity fraud, and protect           determinations, contractor terminations and changes in SSA
personal privacy. The Federal                contracts including Contract Officer Technical Representative
Information Processing Standard 201          changes.
(FIPS 201), Personal Identity
Verification (PIV) of Federal             2. Perform periodic reconciliations between the suitability and
Employees and Contractors,                   credentialing systems to determine whether unsuitable or
established a standard for a PIV system      terminated contractors have been terminated, their credentials
based on secure and reliable forms of        cancelled, and their suitability determination is correct in all
identification issued by the                 appropriate systems.
Government to its employees and
                                          3. Ensure contractors who have been terminated outside of the
contractors. Federal regulations
                                             normal system termination process are also cancelled in all
require that contractors comply with
                                             systems.
HSPD-12 PIV requirements.
                                          4. Document its collection and destruction of terminated
                                             credentials in accordance with FIPS 201.

                                          The Agency agreed with our recommendations.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
     SSA Components and Systems Involved in HSPD-12 PIV.......................................................1
     Responsibilities of CPSPM ........................................................................................................2
     Responsibilities of OPSS ...........................................................................................................3
Results of Review ............................................................................................................................4
     Procedures not followed for Terminating Unsuitable Contractors and Completing
     Investigations .............................................................................................................................4
           Unsuitable Contractors Continued Working on SSA Contracts ..........................................4
           Terminated Unsuitable Contractors with Active Credentials ..............................................5
           Active Contractors with Discontinued OPM Investigations ................................................5
     Procedures not Followed for Cancelling Credentials of Terminated Contractors .....................6
     Procedures for Collecting and Destroying Credentials not Enforced ........................................7
Conclusions ......................................................................................................................................8
Recommendations ............................................................................................................................9
Agency Comments ...........................................................................................................................9
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Flowcharts and Narratives .................................................................................. B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




SSA’s Internal Controls over Contractors’ HSPD-12 Credentials (A-15-11-11178)
ABBREVIATIONS
AIMS                 Administrative Instruction Manual System

CERMS                Contractor Enrollment Request Management System

C.F.R.               Code of Federal Regulations

CMS                  Card Management System

CO                   Contracting Officer

COTR                 Contracting Officer Technical Representative

CPSPM                Center for Personnel Security and Project Management

CSS                  Contractor Suitability System

EDS                  Enrollment System

EPECS                Electronic Personal Enrollment Credential System

FIPS                 Federal Information Processing Standard

HSPD-12              Homeland Security Presidential Directive–12

IDMS                 Identity Management System

MRM                  Material Resources Manual

OIG                  Office of the Inspector General

OMB                  Office of Management and Budget

OPM                  Office of Personnel Management

OPSS                 Office of Protective Security Services

PIV                  Personal Identity Verification

SSA                  Social Security Administration

SSASy                Streamlined Acquisition System




SSA’s Internal Controls over Contractors’ HSPD-12 Credentials (A-15-11-11178)
OBJECTIVE
The objective of this audit was to determine whether the Social Security Administration (SSA)
had appropriate and adequate internal controls over issuing and monitoring Agency contractors’
Homeland Security Presidential Directive-12 (HSPD-12) credentials.

BACKGROUND
HSPD-12 1 requires that all Federal agencies develop and implement a mandatory, Government-
wide standard of identification for Federal employees and contractors. The purpose of HSPD-12
is to enhance security, increase Government efficiency, reduce identity fraud, and protect
personal privacy.

To satisfy the HSPD-12 requirements, the National Institute of Standards and Technology issued
Federal Information Processing Standard 201 (FIPS 201), Personal Identity Verification (PIV) of
Federal Employees and Contractors. 2 FIPS 201 established a standard for a PIV system based
on secure and reliable forms of identification the Government issues to its employees and
contractors. Once the PIV process is complete, an individual’s identity credentials are loaded
onto a smart card called a PIV card or credential. The smart card contains stored identity
credentials, such as a photograph, fingerprint, and other personal information, so the cardholder’s
identity can be electronically verified against the stored credentials. It functions as a visual
identification for physical access and as an automated identity verification for computer systems
access.

Federal regulations 3 require that contractors comply with the requirements of HSPD-12 PIV.
According to SSA policy, anyone requiring unescorted physical access to SSA facilities or
access to SSA information systems for any period of time must go through the HSPD-12 PIV
process to receive a credential. 4

SSA Components and Systems Involved in HSPD-12 PIV
SSA’s Center for Personnel Security and Project Management (CPSPM) and Office of Protective
Security Services (OPSS) are involved in the PIV process. CPSPM conducts and oversees
background investigations for SSA employees, contractors, students, volunteers and other



1
    HSPD-12, Policy for a Common Identification Standard for Federal Employees and Contractors, August 27, 2004.
2
 FIPS Publication 201-1, PIV of Federal Employees and Contractors, National Institute of Standards and
Technology, March 2006.
3
    48 C.F.R. § 52.204-9(a).
4
 Administrative Instructions Manual System (AIMS) Material Resources Manual (MRM) 04.51.05 and SSA
Memorandum, Contractor Enrollment Request Management System (CERMS), October 8, 2008.




SSA’s Internal Controls over Contractors’ HSPD-12 Credentials (A-15-11-11178)                                 1
individuals requiring frequent access to SSA facilities or logical systems. OPSS implements and
manages the HSPD-12 process and FIPS 201 requirements. These two offices have different
chains of command, as illustrated in Figure 1.

                               Figure 1: Components Involved HSPD-12 PIV




Responsibilities of CPSPM
CPSPM is responsible for ensuring all contractors receive the appropriate personnel suitability
background investigation required by Federal laws and regulations. 5 This includes making
suitability determinations and ensuring determinations are appropriately recorded in the system.
Once the process is complete, CPSPM notifies the Contracting Officer Technical Representative
(COTR), the Contracting Officer (CO) and the contractor employer of the suitability adjudication
by an automated suitability determination letter.

The suitability investigation provides a basis for the Agency’s suitability determination. Federal
regulation 6 states that the suitability determination is “. . . based on a person’s character or
conduct that may have an impact on the integrity or efficiency of service.” Certain factors are
considered in determining suitability, including misconduct or negligence in employment,



5
    48 C.F.R. § 52.204-9(a).
6
    5 C.F.R. § 731.101(a).




SSA’s Internal Controls over Contractors’ HSPD-12 Credentials (A-15-11-11178)                    2
criminal or dishonest conduct, and fraud. 7 SSA stated that contract employees are investigated
at the same risk level as Federal employees who perform the same type of work.

Once the contractor submits the application paperwork to SSA, CPSPM conducts an initial
background check, including a fingerprint check, verification of social security number, selective
service registration, work authorization or citizenship and education, if indicated. CPSPM
makes an initial suitability determination based on the results of this background check. CPSPM
sends a letter stating the initial suitability determination to the COTR, the CO and the contractor
employer. Suitable contractors may begin work on an SSA contract. CPSPM must also record
the suitability determination into the Identity Management System (IDMS) to initiate the creation
of a credential. Only CPSPM has the authority to enter the suitability determination into IDMS.

After making the initial determination, CPSPM sends the contractor’s paperwork to the Office of
Personnel Management (OPM). OPM performs a more in-depth background investigation,
including verifying employment, checking credit references, and contacting references.
Generally, OPM conducts investigations for SSA’s contract employees.

Once OPM completes its background investigation, it sends CPSPM its results. CPSPM’s initial
suitability determination is the final determination unless the results of the OPM investigation
cause CPSPM to change the suitability determination. If CPSPM determines the contractor to be
unsuitable based on OPM’s findings, CPSPM prepares a second letter for the COTR, the CO and
the contractor employer stating that the contractor is unsuitable and must be removed from the
contract immediately. OPSS stated that the COTR should contact OPSS to ensure the credential
is deactivated within 18 hours of notification as required by FIPS 201.

CPSPM developed the Contractor Suitability System (CSS) to manage and maintain contractor
background and suitability investigation information. CSS is for the sole use of CPSPM. It
derives SSA contract information from SSA’s Streamlined Acquisition System (SSASy).
However, there are certain contracts not maintained in SSASy; these must be entered and
updated manually by CPSPM.

Responsibilities of OPSS
OPSS led the Agency’s implementation of HSPD-12. OPSS directs SSA’s physical and
protective security program and establishes policy to ensure the safety and security of SSA
employees, visitors, and property.

As a requirement of FIPS 201, OPSS created IDMS, which maintains all enrollment and
credentialing information required for PIV. IDMS has two components: the enrollment process
and Card Management System (CMS). CPSPM enters and approves employees and contractors
in IDMS, and OPSS maintains the creation of the HSPD-12 credential card and credential access




7
    5 C.F.R. § 731.202(b)(1)(2) and (3).




SSA’s Internal Controls over Contractors’ HSPD-12 Credentials (A-15-11-11178)                     3
in CMS. Once the PIV process is complete and a contractor is determined suitable for work,
OPSS issues an HSPD-12 credential.

As part of the enrollment process, OPSS developed the Contractor Enrollment Request
Management System (CERMS) application for SSA COTRs to enter new contractors or remove
existing contractors from contracts. CERMS notified authorized personnel to issue or revoke
credentials to SSA contractors. The Electronic Personal Enrollment Credential System (EPECS)
replaced CERMS on February 24, 2012. EPECS provides a higher level of security than
CERMS and a more efficient contractor management process for COTRs.

RESULTS OF REVIEW
CPSPM and OPSS have separate responsibilities for implementing the requirements of HSPD-
12. We reviewed the processes for each office as they related to HSPD-12 suitability and
credentialing. During our review, we found instances when SSA’s components did not follow
procedures for (1) terminating unsuitable contractors and ensuring investigations were complete,
(2) cancelling terminated contractors’ credentials, and (3) enforcing the collection and
destruction of credential cards.

Procedures not followed for Terminating Unsuitable Contractors and
Completing Investigations
SSA facilities and systems are put at risk when unsuitable contractors and their credentials are
not terminated immediately. According to SSA policy, 8 if a contractor has received an
unsuitable adjudication, CPSPM must inform the COTR, CO and the contractor employer of the
action, and the Agency is responsible for immediately cancelling the contractor’s credential.
During our review, we found two contractors working on SSA contracts for longer than 1 year
after an unsuitable determination. There were also unsuitable contractors who had been
terminated from a contract, but their credentials were not cancelled timely. Additionally,
contractors with incomplete or discontinued investigations continued to work on SSA contracts.

Unsuitable Contractors Continued Working on SSA Contracts
We reviewed a population of 6,057 contractors to determine whether there were unsuitable
contractors with active credentials during our audit period. For all contractors identified as
unsuitable, we checked IDMS for HSPD-12 credentials. We identified three contractors who
had unsuitable determinations and active HSPD-12 credentials. Based on its initial background
check, CPSPM approved these contractors for work on an SSA contract, and OPSS issued an
HSPD-12 credential. However, based on the full OPM investigation, CPSPM’s final
determination for them was unsuitable.




8
    AIMS MRM, 04.51.05 D.1.




SSA’s Internal Controls over Contractors’ HSPD-12 Credentials (A-15-11-11178)                      4
Two of the three unsuitable contractors were still active on separate SSA contracts. One of the
contractors was working as a senior IT engineer, and the other was working on a construction
contract. Both contractors continued working on the contracts because the COTRs did not
receive a letter stating the final unsuitable determination. CPSPM could not verify an unsuitable
determination letter was sent to the COTR or contracting officer in these cases. One contractor
was adjudicated unsuitable on July 20, 2011 and the other on August 17, 2011. Based on our
audit work, both contractors were terminated and their credentials cancelled on
September 14, 2012. A third contractor, who was providing IT support services, continued
working on an SSA contract for 25 days after the unsuitable determination. This contractor
resigned in 2011 for reasons unrelated to his suitability; however, reinstatement on the contract
was possible for up to 1 year since the COTR was not informed of an unsuitable adjudication.

OPSS and other IDMS users depend on the system’s validity when making decisions affecting
access approval. During our fieldwork, we found 10 unsuitable contractors out of the same
contractor population, including the 3 noted above, who still had a favorable suitability status in
the IDMS. OPSS stated they were not notified of a change in the contractors’ final suitability
determinations from suitable to unsuitable. Contractors with suitable determinations in IDMS
can have their physical and system access reinstated within 1 year after they stop working on the
contract without going through the PIV process again. Therefore, it is imperative that the
suitability information in IDMS be correct.

Our review noted SSA did not follow procedures for terminating three unsuitable contractors.
During our review, we reconciled the suitability information in CSS with the information in
IDMS. CPSPM and OPSS could periodically conduct a similar reconciliation to ensure
unsuitable contractors are terminated and their credentials cancelled.

Terminated Unsuitable Contractors with Active Credentials
Physical access controls provide assurance that SSA’s facilities are secure. FIPS 201 requires
that the credential of an unsuitable contractor be cancelled within 18 hours of notification.
During our review, we noted three unsuitable contractors, included in the 10 contractors noted
above, had been terminated from the SSA contracts; however, their credential access was not
cancelled for 11 months, 6 months, and 83 days, respectively. Two of the three were working as
security guards in SSA facilities; their credential access was not cancelled for 11 months and
83 days after their terminations due to an unsuitable determination. The third contractor was
providing janitorial services; his credential access was cancelled 6 months after his termination.

OPSS maintains that, in most cases, it cancels a credential within 4 hours of notification from the
COTR. We were unable to verify why it took so long to cancel these credentials. It could be the
result of poor communication between OPSS and the COTRs or OPSS’ failure to cancel the
credential according to policy. Weak controls over credential termination compromise the
security of SSA facilities and employees.

Active Contractors with Discontinued OPM Investigations
We selected a probe sample of 25 contractors who had active credentials but did not appear to
have suitability investigations. We found three contractors who had active HSPD-12 credentials,

SSA’s Internal Controls over Contractors’ HSPD-12 Credentials (A-15-11-11178)                     5
but their OPM investigations were not completed. CPSPM told us that when OPM returns a file
with an incomplete investigation, CPSPM gathers the missing information and sends the file
back to OPM for completion. CPSPM stated that a returned file does not necessarily indicate an
applicant is unsuitable; a file could be returned because of missing information. Even though
CPSPM could not produce suitability letters for these contractors, all three were issued HSPD-12
credentials.

•   In 2009, while conducting an initial background investigation, CPSPM found one contractor
    had an arrest. CPSPM requested additional information from the contractor and received no
    response. CPSPM then discontinued the investigation due to noncompliance. However, the
    contractor was issued a credential and was working on an IT services contract at the time of
    our fieldwork. As a result of this finding, CPSPM was conducting a new investigation and,
    based on the preliminary background check, determined the contractor is suitable to continue
    working pending the full OPM investigation.

•   CPSPM could not explain why the OPM investigations were halted for the other two
    contractors. Both contractors were working on IT contracts. One of these contractors
    resigned from the contract in July 2011. The other accepted a position as an SSA employee
    in August 2012 and was undergoing an employee background investigation at the time of this
    review.

CPSPM was unable to confirm why these two investigations remained incomplete. OPSS and
the COTRs told us they were not informed of a discontinued investigation so the contractors
continued working on SSA contracts. SSA facilities and systems could be at risk when a
contractor is allowed to continue working without a complete OPM background investigation.

Procedures not Followed for Cancelling Credentials of Terminated Contractors
FIPS 201 requires that all changes in the credential holder’s status be reflected in the system
within 18 hours of notification. For example, when a contractor no longer requires access to
SSA or their employment on a contract is terminated, the HSPD-12 credential and electronic
certificates it contains must be revoked within 18 hours of notification. We found weaknesses in
the procedures for cancelling credentials of terminated contractors.

To determine whether contractors with active credentials were still working on an SSA contract,
we selected 50 suitable contractors who had active credentials during our review period. We
requested that the SSA COTR and contractors’ employers verify that contractors were still
working on an SSA contract. We determined 7 of the 50 contractors had terminated an SSA
contract either before or during our audit period, but they still had active credential cards with
physical access enabled.

We selected 50 suitable contractors whose credentials were cancelled during our review period.
We requested that the SSA COTR verify that the contractor had terminated an SSA contract
during the period. We found 11 of the 50 contractors had terminated an SSA contract, but their
HSPD-12 credentials were not deactivated within 18 hours. Based on our review, these were
suitable contractors who left their respective contracts for reasons other than suitability. We
noted their credentials were not deactivated for 13 days to 1 year from the date of termination.

SSA’s Internal Controls over Contractors’ HSPD-12 Credentials (A-15-11-11178)                        6
OPSS told us the COTR must notify OPSS if a contractor has terminated the contract so physical
access can be terminated within 18 hours of the contractor termination. However, in these cases,
we could not determine whether the COTRs neglected to notify OPSS of the contractor
termination or the COTR notified OPSS of a contractor termination, but OPSS neglected to
cancel the credential within 18 hours.

We also found 6 of the 50 contractors whose credentials were cancelled had stopped working on
an SSA contract but still had HSPD-12 credentials with physical access. We asked OPSS to
explain how contractors with physical access were included in our terminated contractor sample
population. OPSS told us that when physical access needs to be terminated immediately,
credentials can be deactivated outside of the system process. Deactivation generally occurs in
IDMS, which triggers deactivation in CMS. CMS has two subsystems: one for physical access
and another for logical access (see Figure 2). Deactivation would automatically take place in
these subsystems. However, OPSS can deactivate a contractor’s access in one subsystem, which
bypasses the system process that deactivates access in all systems. OPSS must then manually
cancel access in all other systems and subsystems. For 6 of the 50 contractors who terminated
but still had physical access, OPSS had not cancelled access in all systems.

                                    Figure 2: HSPD-12 Access Systems




Procedures for Collecting and Destroying Credentials not Enforced
According to FIPS 201, normal termination procedures must be in place to ensure contractor
credential cards are collected and destroyed. SSA 9 guidance instructs supervisors or project
officers to contact the HSDP-12 help desk within 18 hours of a contractor’s separation to
terminate physical and logical access and render the card unreadable.

We selected a sample of 50 contractors who were terminated during the audit period and asked
the COTRs and OPSS to verify the contractors’ credential cards had been collected and
destroyed.


9
    AIMS MRM, 04.51, Personal Identity Verification and Credential Issuance Process.




SSA’s Internal Controls over Contractors’ HSPD-12 Credentials (A-15-11-11178)                   7
•   For 40 of the 50 contractors, the COTRs told us they collected the terminated credential
    cards; however, there was no record the credential card had been collected and destroyed.
    OPSS also could not verify the collection and destruction of the cards.

•   For 8 of the 50 contractors, the COTRs told us they were unable to collect the contractors’
    credential cards. OPSS could not tell us whether these cards were collected.

•   For 2 of the 50 contractors, the COTR could not be located for inquiry because of outdated
    contract information in SSA systems.

OPSS did not maintain a record of returned credential cards. Therefore, it cannot confirm that a
specific credential had been collected and destroyed; they could only confirm the credential had
been deactivated in the system. OPSS told us deactivating credentials in the system is the
prevailing control because it destroys the card’s electronic authentication, which will prevent an
unauthorized person from entering an SSA building where a card reader has been installed. At
the time of our review, card readers had been installed at SSA Headquarters, the National
Computer Center, and most of the outlying SSA buildings. However, we found one building
where no card reader was installed at either of the two entrances and another building where
there was a card reader at the main entrance but not at the side entrance. At a third location, a
security guard told us the card readers were not working at one entrance so they were not being
used at either of the two entrances.

Additionally, HSPD-12 is a Government-wide identification and can be used to enter other
Federal facilities. In Federal facilities that do not have card readers, credentials may be used for
visual identification only. Thus, any SSA-terminated contractor still holding a credential could
gain access to Federal buildings that do not have card readers. The deactivation and collection of
terminated credential cards provides greater assurance that terminated contractors cannot enter
secured facilities.

CONCLUSIONS
Our audit work identified vulnerabilities in the HSPD-12 suitability and credentialing processes
at SSA. Overall, our review determined that SSA did not have adequate internal controls over
issuing and monitoring HSPD-12 credentials. During our review, we found instances when
SSA’s components did not follow procedures for (1) terminating unsuitable contractors and
ensuring investigations were complete, (2) cancelling terminated contractors’ credentials, and
(3) enforcing the collection and destruction of credential cards.

Contractor suitability determinations are made to prevent unsuitable contractors from accessing
SSA facilities and sensitive information. In a few cases, we determined that OPSS and COTRs
were not always informed of the results of unsuitable determinations. This resulted in three
unsuitable contractors who continued to work on SSA contracts after they had been given an
unsuitable determination. Two of the three worked on SSA contracts for over 1 year after an
unsuitable determination. CPSPM must record the suitability determination into the IDMS to
initiate the creation of a credential. Since the system allows or denies access based on suitability,
it is crucial that the IDMS reflect the correct suitability determination to ensure unsuitable
contractors cannot access SSA buildings. During the course of this review, OPSS began

SSA’s Internal Controls over Contractors’ HSPD-12 Credentials (A-15-11-11178)                        8
replacing the IDMS with the Electronic Personal Enrollment and Credentialing System (EPECS).
EPECS provides CPSPM and COTRs additional tools and functionality for updating contractor
status following an initial suitability determination and throughout the lifetime of the credential.
These additional tools, while still dependent on solid business processes for communicating an
individual’s suitability status to the COTR, CO, contracting company and OPSS, provide
CPSPM the ability to revoke logical and physical access immediately, but not later than 18 hours
after notification of an unsuitable adjudication.

Weaknesses in the controls over credential cancellation of terminated contractors compromise
the security of SSA facilities and employees. We found terminated contractor credentials with
active physical access and credentials that were not deactivated within 18 hours of termination.
Also, we found that in some cases, OPSS bypassed the normal system process to deactivate
credentials. OPSS did not manually cancel access in all other subsystems as required so access
information was incorrect in certain subsystems. Additionally, COTRs are responsible for
communicating changes to contractor employment. If COTRs do not provide notification of a
contractor termination, the contractor status may be incorrect in the system.

According to FIPS 201, normal termination procedures must be in place to ensure contractor
credential cards are collected and destroyed. OPSS did not maintain a record of returned
credential cards. Therefore, it could not confirm a specific credential had been collected and
destroyed only that it had been deactivated in the system.

RECOMMENDATIONS
To ensure SSA facilities and property are properly secured and safeguarded, SSA needs
assurance that controls over HSPD-12 suitability and credentialing are followed and enforced.
Therefore, we recommend SSA:

1. Ensure all components involved in the HSPD-12 suitability and credentialing process
   effectively communicate unsuitable determinations, contractor terminations and changes in
   SSA contracts including COTR changes.

2. Perform periodic reconciliations between the suitability and credentialing systems to
   determine whether unsuitable or terminated contractors have been terminated, their
   credentials cancelled, and their suitability determination is correct in all appropriate systems.

3. Ensure contractors who have been terminated outside of the normal system termination
   process are also cancelled in all systems.

4. Document its collection and destruction of terminated credentials in accordance with
   FIPS 201.

AGENCY COMMENTS
The Agency agreed with our recommendations. The Agency’s complete comments are included
in Appendix C.


SSA’s Internal Controls over Contractors’ HSPD-12 Credentials (A-15-11-11178)                      9
                                       APPENDICES




SSA’s Internal Controls over Contractors’ HSPD-12 Credentials (A-15-11-11178)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objectives, we:

•   Reviewed the Presidential Directive, Federal regulations, and Office of Management and
    Budget memorandums related to the implementation of Homeland Security Presidential
    Directive-12 (HSPD-12).

•   Reviewed Federal Information Processing Standard 201-1 and Administrative Instruction
    Manual System guidance on personal identity verification and the credential issuance
    process.

•   Interviewed management and staff from the Center for Personnel Security and Project
    Management and Office of Protective Security Services to gain an understanding of the
    processes and controls related to HSPD-12 suitability and credentialing.

•   Observed the system screens and processes for enrolling, approving, and issuing an HSPD-12
    credential.

•   Obtained suitability data for all current or terminated contractors from the Contractor
    Suitability System (CSS) for the audit period.

•   Obtained credential data for all current or terminated contractors from Identity Management
    System (IDMS) for the audit period.

•   Performed a reconciliation of contractor data between the CSS and IDMS and tested samples
    to ensure controls and procedures were followed.

•   Reviewed a sample of contractor background investigation files for completeness.

•   Observed card readers at Agency buildings in Woodlawn.

We determined the computerized data used during our review were sufficiently reliable given
our objectives, and the intended use of the data should not lead to incorrect or unintentional
conclusions.

We performed our fieldwork at Headquarters in Baltimore, Maryland, from October 2011
through September 2012. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for findings and
conclusions based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusion based on our audit objectives




SSA’s Internal Controls over Contractors’ HSPD-12 Credentials (A-15-11-11178)                    A-1
Appendix B – FLOWCHARTS AND NARRATIVES




SSA’s Internal Controls over Contractors’ HSPD-12 Credentials (A-15-11-11178)   B-1
SSA’s Internal Controls over Contractors’ HSPD-12 Credentials (A-15-11-11178)   B-2
Personal Identity Verification
The Personal Identification Verification (PIV) credential is personalized with identity
information about the individual to whom the card is issued. FIPS 201 creates a structured
process for sponsoring and processing individuals in the PIV system and for issuing
credentials. The process calls for “trusted individuals” who are vetted, trained, and certified for
specific roles to ensure a separation of duties throughout the process. This is to ensure that no
single individual can corrupt the system and issue a credential. The specific roles within the
process are as follows.

•   Applicant - An employee, contractor, or other individual requiring access to a Government
    facility or system.

•   Sponsor – The Sponsor (COTR) is responsible for initiating the HSPD-12 enrollment of the
    employee or contractor applicant. The Sponsor is responsible for

        o entering the applicant’s personal and work information,
        o collecting the biometric identity of applicants through a fingerprint scan,
        o capturing the applicant’s picture, and
        o scanning the applicant’s identity documents.

•   Registrar - The Registrar (CPSPM) conducts a Numident check to validate the applicant’s
    identity and ensure the identity documents are authentic.

•   Determination Officer (DO) – The DO (CPSPM) ensures an appropriate background
    investigation is initiated and makes a final suitability determination. The DO also verifies
    and inputs the date and results of the fingerprint check in IDMS.

•   Issuer - The Issuer (OPSS) issues the credential to an applicant after completing the
    following.

        o Verify Identity of the Applicant in relation to the Sponsor’s input of the identity
          document.
        o Verify the Biometric Identity of the Applicant through a Fingerprint Scan.
        o Activate the Credential in CMS.
        o Assist the Applicant in applying the six to eight-digit personal identification number
          to the credential.

PIV Process Flow
The PIV process begins when the contractor applicant completes either a Form SF-85
(Questionnaire for Non Sensitive Positions) or a Form SF-85P (Questionnaire for Public Trust
Positions). The applicant provides SSA with these Forms along with a Fair Credit Report
Authorization (FCRA), an OF 306 form (Declaration for Federal Employment), two completed


SSA’s Internal Controls over Contractors’ HSPD-12 Credentials (A-15-11-11178)                      B-3
FD-258 fingerprint cards and two I-9 identity documents. An Applicant who is a non-citizen
must also provide work authorization forms. If an applicant claims to have had a background
investigation from another Federal agency, CPSPM will verify the investigation with the Office
of Personnel Management (OPM). If a higher level background investigation is required for the
current contract than is on record, CPSPM will require that the applicant complete paperwork for
the higher level investigation. The CPSPM conducts a prescreen background check which
includes a National Criminal Investigations Center (NCIC) check, verification of Social Security
number, citizenship check, and check for Selective Service System registration, where
applicable.

Based on the results of the prescreen background check, CPSPM will issue either a suitable or
unsuitable determination letter to the contractor employer, SSA Contracting Officer (CO), and
Sponsor (COTR). If the suitability determination is favorable, the Sponsor (COTR) is
responsible for entering the applicant’s information into EPECS (previously CERMS). The
Registrar/DO will verify all information. The DO enters the suitability determination in IDMS,
which approves credential issuance. The Issuer issues a temporary credential and sends an
electronic message to the credential manufacturer to print a credential. This allows the
contractor to begin work while a full background investigation is completed by OPM.

Once the Issuer receives the printed credential card, the applicant appears before the Issuer with
his/her I-9 identification documents that were presented at the beginning of the process. The
Issuer validates the actual identification against the picture identification, compares I-9
documents, and electronically compares the Applicant's fingerprints to those in IDMS. The
Issuer downloads the electronic certificates onto the credential, and the applicant changes his or
her password in the system. The Issuer signs the credential finalizing the credential process and
gives the credential to the Applicant. If the identification check fails, the Issuer notifies the
Registrar and Sponsor who either resolve the identification issue or deny the credential to the
Applicant.

Once the OPM investigation is complete, the investigative report is submitted to the DO for
adjudication. If the DO’s final adjudication is suitable, the contractor continues to perform SSA
contract work and no further action is required. If the final adjudication is unsuitable, CPSPM
issues an unsuitable letter to the contractor employer, CO and COTR. The COTR is responsible
for ensuring the contractor is removed from the contract, notifying OPSS to cancel the credential
and collecting the contractor’s credential.




SSA’s Internal Controls over Contractors’ HSPD-12 Credentials (A-15-11-11178)                   B-4
           Appendix C – AGENCY COMMENTS




                                            SOCIAL SECURITY

 MEMORANDUM

Date:      March 28, 2013                                                                  Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton    /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “The Social Security Administration’s Internal
           Controls over Issuing and Monitoring Contractors’ Homeland Security Presidential Directive-12
           Credentials” (A-15-11-11178)—INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.



           Attachment




           SSA’s Internal Controls over Contractors’ HSPD-12 Credentials (A-15-11-11178)                       C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“THE SOCIAL SECURITY ADMINISTRATION’S INTERNAL CONTROLS OVER
ISSUING AND MONITORING CONTRACTORS’ HOMELAND SECURITY
PRESIDENTIAL DIRECTIVE (HPSD)-12 CREDENTIALS” (A-15-11-11178)

Recommendation 1

Ensure all components involved in the HSPD-12 suitability and credentialing process effectively
communicate unsuitable determinations, contractor terminations, and changes in SSA contracts,
including COTR changes.

Response

We agree. The Office of Security and Emergency Preparedness’ Office of Protective Security
Services and the Office of Personnel’s Center for Personnel Security and Project Management
are developing a Memorandum of Understanding to document, in detail, the communication
responsibilities of all parties involved in the contractor issuance and revocation processes for
HSPD-12 credentials. In addition, we fully implemented the automated Electronic Personal
Enrollment and Credentialing System (EPECS) on February 24, 2013.

EPECS provides a higher level of security than our previous credentialing system and a more
efficient contractor management process for the Contracting Officer Technical Representatives.
EPECS provides additional tools and functionality for updating contractor status following an
initial suitability determination and throughout the lifetime of the credential. We are updating
the related Administrative Instruction Manual System Guide (AIMS), Material Resources
Manual 04.51, “Personal Identity Verification and Credential Issuance Process,” to reflect all
parties’ roles and responsibilities within the new system.

Recommendation 2

Perform periodic reconciliations between the CSS and IDMS systems to determine whether
unsuitable or terminated contractors have been terminated, their credentials cancelled, and their
suitability determination is correct in all appropriate systems.

Response

We agree. We replaced the Identity Management System (IDMS) with EPECS. We will ensure
periodic reconciliation between EPECS and the Common System Services, as it may add value
to the current business process.

Recommendation 3

Ensure contractors who have been terminated outside of the normal system termination process
are also cancelled in all systems.




SSA’s Internal Controls over Contractors’ HSPD-12 Credentials (A-15-11-11178)                      C-2
Response

We agree.

Recommendation 4

Document its collection and destruction of terminated credentials in accordance with FIPS 201.

Response

We agree. We will determine the most cost-effective and time-sensitive approach for tracking
the collection and destruction of terminated credentials.




SSA’s Internal Controls over Contractors’ HSPD-12 Credentials (A-15-11-11178)               C-3
Appendix D – MAJOR CONTRIBUTORS
Victoria Vetter, Director, Financial Audit Division

Judith Kammer, Audit Manager, Financial Audit Division

Kali Biagioli, Senior Auditor, Financial Audit Division




SSA’s Internal Controls over Contractors’ HSPD-12 Credentials (A-15-11-11178)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
